          FEDERAL HOUSING FINANCE AGENCY
            OFFICE OF INSPECTOR GENERAL



       CliftonLarsonAllen LLP’s Audit of the Federal
     Housing Finance Agency’s Risk Management Process
             for External Network Vulnerabilities




Audit Report: AUD-2012-010                  September 28, 2012
AUDIT OBJECTIVE: The objective of this performance audit was to evaluate FHFA’s risk management
process for external network vulnerabilities.




Because information in this report could be abused to circumvent FHFA’s internal controls, it has not been
released publicly.
